TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Procurement’s Control Environment Was
                        Ineffective and Did Not Prevent
                         Overpayments to Contractors



                                          March 28, 2008

                              Reference Number: 2008-10-092




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 28, 2008


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Procurement’s Control Environment Was
                             Ineffective and Did Not Prevent Overpayments to Contractors
                             (Audit # 200710035)

 This report presents the results of our review of the Office of Procurement’s (Procurement)
 voucher/invoice verification process. The overall objective of this review was to perform a trend
 analysis of common issues and findings identified in previously issued invoice and voucher
 audits. This audit was conducted as part of our commitment to review the Internal Revenue
 Service’s (IRS) procurement activities.

 Impact on the Taxpayer
 Most IRS mission critical programs rely on contract support. Because contract expenditures
 represent a significant outlay of IRS funds, the Treasury Inspector General for Tax
 Administration audited some of these expenses and issued 16 reports from September 2003
 through April 2007.1 The internal controls and practices the IRS had in place to verify contract
 charges were not effective during the period covered by these audits. In the voucher/invoice
 payments sampled (approximately $117 million), we identified approximately $7.5 million
 (6 percent) in questionable charges and 2 instances of contractors submitting false claims for
 reimbursement. Without effective practices and internal controls in place to verify contract
 charges, the IRS is at risk of making improper payments and misusing taxpayer funds.




 1
     See Appendix V.
I                     Pmcurement's Control Environment Was Ineffective and Old Not
                                Prevent Overpayments to Contractors




    Svnopsis
    The internal controls and practices the IRS had in place to verify contract charges were not
    effective during the period covered by the 16 prior voucher/invoice payment audits included in
    this report. In 15 of the 16 reports, we identified weaknesses in the control environment
    regarding the voucher/invoice verification process. The IRS did not perform comprehensive
    verifications of actual hours worked or a detailed review of travel expenses but simply accepted
    the contractors' certifications. We also reported in two of the audit reports that the IRS was not
    verifying the skills/qualifications of contractor employees and, therefore, overpaid the
    contractors for employees not qualified for the charged positions. Interviews confirmed that
    designated IRS employees did not believe they were provided with sufficient written verification
    procedures, adequate training, or sufficient contractor supporting documentation to perform their
    duties. Unless adequate supporting documentation for charges and contractor employee
    qualifications is obtained and reviewed, the IRS cannot assure the accuracy and allowability of
    the charges included on the invoices/vouchers. This overall weak control environment puts the
    IRS at risk of making improper payments.
    In response to our audits, Procurement has developed a Guidebook for Acquisition Practices
    (Guidebo~k)~  that provides a detailed process for reviewing vouchers/invoices. Procurement
    planned to have this Guidebook distributed to all Contracting Officer's Technical 3(d)
    Representatives by the end of Calendar Year 2007.                             ..... .




    actions were reported as being completed even though all the questionable charges had not been
    recovered. We do not believe this condition is indicative of a Procurement-wide systemic
    problem. Nonetheless, we reported the issue to Procurement management, who agreed to change
    the reporting process and to ensure all agreed-to questionable charges are recovered before they
    close corrective actions.



    We recommended the Director, Procurement, provide training on the Guidebook and follow up
    to ensure it is being used to verify vouchers and invoices. The Guidebook should be revised to
    include a resume review to ensure contractor employees are qualified for the positions at which
    they are being charged.




     The Guidebook is a web-based system that includes standardized process, procedures, templates, and best practices
    used by Contracting Officers, Contracting Officer's Technical Representatives, and Procurement customers.
                                                                                                                    2
               Procurement’s Control Environment Was Ineffective and Did Not
                          Prevent Overpayments to Contractors




Response
IRS management agreed with our recommendation. Training on the Guidebook for Acquisition
Practices Voucher/Invoice Review process was provided to Procurement personnel in October
2007. The Guidebook will be revised to include a contractor employee qualification/verification
process, and training will be provided on this process. A quality review process will be
implemented to monitor compliance with the voucher verification process. The Guidebook will
be discussed at the 2008 Acquisition Planning Conference and copies made available to all
attendees. Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                              3
                     Procurement’s Control Environment Was Ineffective and Did Not
                                Prevent Overpayments to Contractors




                                                 Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          An Incomplete Voucher/Invoice Verification Process Resulted in
          the Payment of Questionable Contract Charges ...........................................Page 2
                    Recommendation 1:..........................................................Page 4

          Corrective Actions Were Closed Before Ensuring Questionable
          Charges Were Recovered..............................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 7
          Appendix III – Report Distribution List .......................................................Page 8
          Appendix IV – Outcome Measure ................................................................Page 9
          Appendix V – List of Voucher/Invoice Verification Audit Reports.............Page 10
          Appendix VI – Management’s Response to the Draft Report ......................Page 12
       Procurement’s Control Environment Was Ineffective and Did Not
                  Prevent Overpayments to Contractors




                       Abbreviations

CO               Contracting Officer
COTR             Contracting Officer’s Technical Representative
DCAA             Defense Contract Audit Agency
IRS              Internal Revenue Service
                      Procurement’s Control Environment Was Ineffective and Did Not
                                 Prevent Overpayments to Contractors




                                      Background

The Office of Procurement (Procurement) is a key
partner in accomplishing the Internal Revenue Service          Procurement’s vision is to be
                                                            the best acquisition organization
(IRS) mission. Most IRS mission critical programs rely       in the Federal Government with
on contract support. Procurement’s mission is to deliver      the best people, practices, and
world-class, customer-focused acquisition services with                performance.
the highest degree of integrity and the cooperative effort
of partners. Procurement’s vision is to be the best
acquisition organization in the Federal Government, with the best people, practices, and
performance.
Because contract expenditures represent a significant outlay of IRS funds, the Treasury Inspector
General for Tax Administration committed to audit these expenditures. We performed 16 audits1
from September 2003 through April 2007, focusing on whether amounts paid by the IRS under
various contracts were accurate, supported, and allowable.
Our contract audit responsibility includes audits of both the IRS’ management of Procurement
and contractors’ performance. The Treasury Inspector General for Tax Administration has an
interagency agreement in place with the Defense Contract Audit Agency (DCAA) to conduct
audits of the contractors doing business with the IRS. These include DCAA audits of proposals,
incurred costs, cost accounting systems, financial capability, forward pricing, termination claims,
defective pricing, and progress payments. In Fiscal Years 2006 and 2007, we issued 107 audit
reports relating to DCAA contract audits.
This review was performed at Procurement in the Office of Agency-Wide Shared Services in
Oxon Hill, Maryland, during the period June through November 2007. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




1
    See Appendix V.
                                                                                            Page 1
                      Procurement’s Control Environment Was Ineffective and Did Not
                                 Prevent Overpayments to Contractors




                                  Results of Review

An Incomplete Voucher/Invoice Verification Process Resulted in the
Payment of Questionable Contract Charges
The internal controls and practices the IRS had in place to verify contract charges were not
effective during the period covered by the audits included in this review. We analyzed 16 audit
reports issued from September 2003 through April 2007, 15 of which identified weaknesses in
the control environment regarding the voucher/invoice verification process.2 These audits
included the review of approximately $117 million in voucher/invoice payments out of
approximately $2 billion (6 percent) paid on the contracts at the time the audits were performed.
The audits identified approximately $7.5 million (6 percent) in questionable charges. In
addition, our analysis of DCAA reports issued in Fiscal Years 2006 and 2007 identified
approximately $167 million in questionable charges directly related to IRS contracts. In our
opinion, these questionable charges are the result of ineffective controls and practices the IRS
had in place to verify whether contract charges were accurate, supported, and allowable before it
made payments to contractors.
Another result of the ineffective controls is the potential nonidentification of illegal acts. The
Treasury Inspector General for Tax Administration referred 1 of the contractors included in the
16 reports to our Office of Investigations for potential fraud. In this instance, the contractor
overstated expenses and understated related income to justify more than $1.3 million in false
claims for reimbursement. This case was successfully prosecuted, with the two individuals
involved in the fraud pleading guilty and agreeing to pay restitution. The Office of Audit
worked with the Office of Investigations on another case involving contract fraud. In this
instance, the contractor pleaded guilty to making false and fraudulent claims. We believe that if
sufficient cost-verification controls had been in place, these two instances might have been
identified or even prevented.
Examples of the ineffective controls and practices we reported involved the IRS not having a
consistent and complete voucher/invoice verification process. The IRS did not perform
comprehensive verifications of actual hours worked, such as a review of the contractor’s time
reports, or a detailed review of all contractor travel expenses through a verification of supporting
receipts. In addition, in 2 of the 16 reports, we found that the IRS was not verifying, through a
review of résumés, the skills/qualifications of the contractor employees. Therefore, the IRS
overpaid the contractor for employees not qualified for the charged positions.


2
    See Appendix V.
                                                                                             Page 2
                  Procurement's Control Environment Was ineriective rPnd Did Not
                             Prevent Overpayments to Contractors



The Federal Acquisition Regulation3 stipulates that contracts may be entered into and signed on
behalf of the Federal Government only by Contracting Officers (CO). The COs have the
authority to administer or terminate contracts and make related determinations and findings. The
Regulation also states that the CO is responsible for ensuring the performance of all necessary
actions for effective contracting, ensuring compliance with the terms of the contract, and
safeguarding the interests of the Federal Govenunent in its contractual relationships.
The Contracting Officer's Technical Representative (COTR) is the designated program office
official. The program office nominates a COTR, who is the CO's technical expert and
representative in the administration of a contract. Usually, the CO will appoint the COTR by
issuing a signed letter of appointment tailored to meet the needs of each contract. IRS guidance
includes a sample appointment letter that outlines delegated authorities of the COTR. These
authorities include requirements for (1) reviewing contractor vouchers/invoices to ensure they
accurately reflect the work completed in accordance with the requirements of the contract,
(2) certifying acceptance, and (3) forwarding a copy of the invoice to the CO. However, the
appointment letters are a broad delegation of authority from the CO to the COTR to perform
various contract administrative functions. They do not provide specifics as to how to perform
the duties.
The COTRs interviewed concerning specific performance direction during the course of the
16 audits identified the following reasons why consistent, comprehensive verifications of
voucher/invoice charges were not performed (i.e., weak internal controls):
        COTRs did not receive any written procedural guidance from within the IRS.
        COTRs did not receive adequate training for their assigned tasks.
        At times, contractors were not required to provide supporting documentation for
        voucher/invoice charges.



Years 2006 and 2007 showed that nine contractors had reported issues with one or more of their
systems (e.g., accounting system, budgeting and planning system, indirect and other direct costs
system, billing system). Therefore, these systems should not have been relied upon to properly
accumulate, segregate, report, and charge costs for Federal Government contracts.
Unless adequate supporting documentation for invoiced charges and contractor employee
qualifications is obtained and reviewed, the IRS cannot assure the accuracy and allowability of
the charges included on the vouchers/invoices. This puts the IRS at risk of making improper
contractor payments and misusing taxpayer funds.


' 48 C.F.R. ch. 1 (2006).
                                                                                           Page 3
                  Procurement’s Control Environment Was Ineffective and Did Not
                             Prevent Overpayments to Contractors



In response to our audits, Procurement has developed a Guidebook for Acquisition Practices
(Guidebook)4 which provides a detailed process for reviewing vouchers/invoices. A
Procurement official stated that the Guidebook should be distributed to all COTRs by the end of
Calendar Year 2007. The Guidebook includes checklists for detailed voucher/invoice reviews,
including ensuring adequate supporting documentation (e.g., timesheets, travel receipts) is
submitted by the contractor.

Recommendation
Recommendation 1: The Director, Procurement, should provide training on the Guidebook
and follow up to ensure that all COTRs receive and use the voucher verification guidance
developed as part of the Guidebook. In addition, the Guidebook should be revised to include
reviewing résumés to ensure that contractor employees are qualified for the positions at which
they are being charged.
        Management’s Response: The IRS agreed with the recommendation. Training on
        the Guidebook Voucher/Invoice Review process was provided to Procurement personnel
        in October 2007. In addition, the Director, Procurement, will take the following actions:
             •   The Guidebook will be revised to include a contractor employee
                 qualification/verification process.
             •   Training will be provided on the revised contractor employee
                 qualification/verification guidance.
             •   A quality review process will be implemented to monitor compliance with the
                 voucher verification guidance.
             •   The 2008 Acquisition Planning Conference will include a discussion on the
                 Guidebook process, and copies of the Guidebook will be available to attendees.

Corrective Actions Were Closed Before Ensuring Questionable
Charges Were Recovered
We analyzed corrective actions taken for the 14 of 16 prior voucher/invoice payment audit
reports that contained recommendations. Audit recommendations and corrective actions are
tracked on the Department of the Treasury Joint Audit Management Enterprise System to ensure
corrective actions are taken in a timely manner. At the time of this review, the System indicated
the IRS had closed corrective actions for the recommendations in 11 of the 14 audits, reporting
recovery of approximately $87,000. Corrective actions for recommendations in the remaining


4
 The Guidebook is a web-based system that includes standardized processes, procedures, templates, and best
practices used by COs, COTRs, and Procurement customers.
                                                                                                         Page 4
                       Procurement's Control Environment Was tneffectlve and Dld Not
                                  Prevent Overpayments to Contractors



       three reports had not been completed at the time of our review. However, Procurement officials
       informed us they planned to recover an additional $2.8 million from the contractors evaluated in
       these 3 prior audit reports.
       Our analysis of the corrective actions reported as being taken (completed) identified two
. ..   instances,.                               in which none of the questionable charges had been
       recovered. Discussions with Procurement officials confirmed that thev had closed-the corrective




       Procurement management agreed to change the reporting process and to ensure that all agreed-to
       auestionable iharges are recovered before thev closethe corrective action. Because both of
       these instances A                              d were unique, we do not believe this condition is
       indicative of a Procurement-wide systemic problem or a contractor integrity issue. Therefore,
       we are making no recommendation.




        See Appendix IV.
                                                                                                 Page 5
                      Procurement’s Control Environment Was Ineffective and Did Not
                                 Prevent Overpayments to Contractors



                                                                                    Appendix I

           Detailed Objective, Scope, and Methodology

The overall objective of this review was to perform a trend analysis of common issues and
findings identified in previously issued invoice and voucher audits.1 To accomplish our
objective, we:
I.        Performed a trend analysis of common issues and findings from Treasury Inspector
          General for Tax Administration audit reports related to invoice and voucher processing.
          A. Identified 16 invoice/voucher payment audit reports issued from September 2003
             through April 2007.
          B. Analyzed the reports and identified conditions and recommendations that were
             indicative of Procurement control or process weaknesses.
II.       Performed a trend analysis of common issues and findings from DCAA audit reports
          related to contractor invoice and voucher processing.
          A. Identified 107 DCAA audit reports issued during Fiscal Years 2006 and 2007.
          B. Analyzed the DCAA reports and identified similar conditions and recommendations
             that could contribute to Procurement-wide control or process weaknesses.
III.      Performed a trend analysis of common issues and findings from Treasury Inspector
          General for Tax Administration Office of Investigations cases.
          A. Identified two Office of Investigations procurement-related cases resolved in
             Fiscal Years 2006 and 2007.
          B. Analyzed case information and identified similar conditions and outcomes that could
             contribute to Procurement-wide control or process weaknesses.
IV.       Confirmed whether planned corrective actions were taken to resolve the individual
          conditions identified in our audit reports.
          A. Confirmed with Procurement officials whether all actions had been completed.
          B. Obtained documentation to support completed corrective actions.




1
    See Appendix V.
                                                                                              Page 6
              Procurement’s Control Environment Was Ineffective and Did Not
                         Prevent Overpayments to Contractors



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Alicia P. Mrozowski, Director
Thomas Brunetto, Audit Manager
Terrey Haley, Senior Auditor
Debra Kisler, Senior Auditor
James Mills, Auditor




                                                                                        Page 7
              Procurement’s Control Environment Was Ineffective and Did Not
                         Prevent Overpayments to Contractors



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P




                                                                        Page 8
I               ,I     Procurement% Control Envlronment Was Ineffectlve and Dld Not
                ,                 Prevent Overpayments to Contractors




                                                                                    Appendix IV

                                    Outcome Measure

    This appendix presents detailed information on the measurable impact that our audit will have on
    tax administration. This benefit will be incorporated into our Semiannual Report to Congress.
                                                                           3(d)
    Tvpe and Value of Outcome Measure:
                                                                      ..
                                                                 .. ...    .
                                                                 4).
       Reliability of Information - Actual




                                                                                         -
    Methodoloav Used to Measure the Reported Benefit:
    Our analysis of the corrective actions reported as being taken on the 14 of 16 prior
    voucher/invoice payment audit reports' that contained recommendations identified 2 instances,
                                    in which the corrective actions were reported as being completed
    even though all the questionable charges had not been recovered. Discussions with Procurement
    officials confirmed that they
    Joint Audit Management E

    condition to Procurement's attention, responsible managers stated that they would



                                                                                  3(d)




     See Appendix V.
                                                                                              Page 9
               Procurement’s Control Environment Was Ineffective and Did Not
                          Prevent Overpayments to Contractors



                                                                             Appendix V

   List of Voucher/Invoice Verification Audit Reports

Audit of Personnel Classification Support Services Contract (Reference Number 2003-10-194,
dated September 2003)
Improvements Are Needed in the Invoice Review Process for the Business Systems
Modernization Contract (Reference Number 2004-10-117, dated June 2004)
Review of the Nationwide Electronic Tax Forum Conferences and Exhibitions Contract
(Reference Number 2004-10-128, dated July 2004)
Audit of the Asset Seizure and Forfeiture Program Contract (Reference Number 2004-10-174,
dated September 2004)
Voucher Audit of the Treasury Information Processing Support Services Contract –
TIRNO-00-D-00014 (Reference Number 2005-10-076, dated April 2005)
Voucher Audit of the Treasury Information Processing Support Services Contract –
TIRNO-00-D-00015 (Reference Number 2005-10-124, dated August 2005)
Voucher Audit of the Treasury Information Processing Support Services Contract –
TIRNO-00-D-00013 (Reference Number 2005-10-145, dated September 2005)
Voucher Audit of the Integration Support Contract – TIRNO-92-C-00014 (Reference
Number 2005-10-162, dated September 2005)
Voucher Audit of the Federal Financial System Software Technical Support Services Contract –
TIRNO-04-T-00116 (Reference Number 2006-10-027, dated December 2005)
Invoice Audit of the Taxpayer Burden Simulation Models Contract – TIRNO-03-D-00001
(Reference Number 2006-10-060, dated March 2006)
Invoice Audit of the Microsoft Consulting Services Contract – TIRNO-03-K-00191
(Reference Number 2006-10-086, dated June 2006)
Voucher Audit of the Infrastructure Shared Services Task Order of Contract TIRNO-99-D-00001
(Reference Number 2006-10-087, dated June 2006)
Voucher Audit of the Federally Funded Research and Development Center Contract –
TIRNO-99-D-00005 (Reference Number 2006-10-140, dated August 31, 2006)
Invoice Audit of the Management of Seized and Forfeited Assets Contract – TIRNO-05-C-00010
(Reference Number 2007-10-025, dated January 11, 2007)


                                                                                     Page 10
              Procurement’s Control Environment Was Ineffective and Did Not
                         Prevent Overpayments to Contractors



Voucher Audit of the Information Processing Support Services Contract – TIRNO-00-D-00009
(Reference Number 2007-10-050, dated February 27, 2007)
Invoice Audit of the Financial Statement/Government Accountability Office Audit Support
Services Contract – TIRNO-03-K-00167 (Reference Number 2007-10-069, dated April 23, 2007)




                                                                                   Page 11
            Procurement%Control Environment Was Ineffective and Did Not
        j              Prevent Overpayments to Contractors




                                                                                                          Appendix VI

       Management's Response to the Drat%Repott
                                               -




                                        DEPARTMENT O F THE TREASURY
                                                   RLVLYU~LRVICC
                                           INTLIINAL
                                             WASHINGTON. D.C. I O Z X 4




                                                   March 24.2008




            MEMORANDUM FOR MICHAEL R. PHlLllPS
                                    DEWTY INSPECTOR GENERAL FOR AUDIT

                                                    Shred a w k -
                                    Chief, ~goncy-w~de

            SUBJECT:                                   -
                                   Draft Audtt Report P l a a r m n t ' s Control Envimnment
                                   WM Insliecthraand Dld Not Prevent Overpayments to
                                   Contmchs (Audtl WOO710035) (I-bnk X200g33507)


            Thank you for the oppart~nllyto mepond to tha 8ubJeclaudit report. The audtt was
            conducted to perform a trend analyak of common Issums and flndinga IdwntW In
            prevlow Invoke and voucher audtta.

            The audit r e v i e d 16 previous nportr, 15 of which identified weaknesses in the
            lnvoiahrouchervwrfidon control environment*uhere houn worked and dalrned tmvel
            wsn aoapted based rimply on tho contractoh csrtMlcation. Two prsvlous audib
            identir~edthat skllls and quallfldtlons d contractor employees worn not verlfkj
            multlng In overpayment for wrnploym who m m not quallflod for thm chsrgmd
            posttlona.

            Ae noted In your report, we have dm~lop.da OuWbook for Acquisition Prndces
            (GAP) whleh Indudea s Vwdmrllnvoia Review process. Trnlnlng has baan pravldd
            for thla process and additional tmlning I8 planned throughout Vll8 flab1 yoar for our field
            ofkas. AddbnaEly, to increase wmmunicallonr, our annual Advanad Acqukkon
            Planning Conference wlll Include a dbcuukn on propor vouchernnvoia procasing.

                           the outmmo rneae~umol Improved rellsbilky d Infarmstion In the amount
                           msultlng from two Instances where the^ co&e    actions worn nportrd
            as bwlng completed, even though all th.quntlombla chmrgem hmd not ken mcovarwd.
3(d)        onm thls wa8 brought to our mttenth. we agreed to dung0 our roporbng proaP8
            ensure all agreed40 questionable ohage8 are m r a d ptla to dodng a carecfhrc
            actlon.




                                                                                                                Page 12
Procurement’s Control Environment Was Ineffective and Did Not
           Prevent Overpayments to Contractors




                                                        Page 13
Procurement’s Control Environment Was Ineffective and Did Not
           Prevent Overpayments to Contractors




                                                        Page 14
